    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




  INTERIM REPORT ON MANAGEMENT
     OVERSIGHT OF GRANTEES -
OFFICE OF PROGRAM PERFORMANCE




          Report No. AU07-02



            APRIL 2007

              www.oig.lsc.gov
                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY .....................................................................
                                                                                    I

INTRODUCTION .................................................................................2

BACKGROUND ................................................................................... 2

OBJECTIVES. SCOPE AND METHODOLOGY ..................................3

OVERALL EVALUATION .................................................................... 4

AUDIT RESULTS ................................................................................ 4

A . GRANT COMPETITION AND AWARD PROCESS ....................... 4
    Background ...................................................................................4

     Competition ................................................................................... 5

     Applicant Evaluation Scores .......................................................... 5


B. POST AWARD EVALUATION AND OVERSIGHT .........................7
   Background ...................................................................................7

     Tailoring Evaluations .....................................................................
                                                                                             8

     Improving Measures of Case Productivity .....................................8
     Recommendation 1 ......................................................................9
     Management Comments .       Recommendation 1 ............................9

     Formal Follow-up Procedures......................................................10
     Recommendation 2 .....................................................................10
     Management Comments - Recommendation 2 ..........................10

EVALUATION OF MANAGEMENT COMMENTS .............................10

APPENDIX I .MANAGEMENT'S RESPONSE TO DRAFT AUDIT
            REPORT
                             EXECUTIVE SUMMARY

What OIG Found

Overall, programs managed by the Office of Program Performance (OPP)
generally did not duplicate the efforts of other LSC offices providing oversight to
LSC grantees. OPP's oversight of grantees emphasized the quality and
effectiveness of legal services provided to the grantee's client base. However,
we noted the following: there was a system error in the scoring of grant
applications; OPP could leverage its limited resources and facilitate more
frequent coverage of grantees by restructuring the scope of some on-site grantee
program reviews; and grantee evaluation processes could be improved by
implementing new follow-up procedures to ensure that recommendations are
adopted timely and by using more accurate measures of case productivity as well
as work measurement data.

What OIG Recommends

Management did take action during the audit and corrected the system error.
The system error did not adversely impact the scoring of the applications. Also,
during the course of the audit, OPP instituted Program Engagement Visits, the
main purpose of which was for program counsel to develop a better
understanding of the program.        Because of management's actions, no
recommendations were necessary for these two findings. However, we did
recommend that OPP develop more comprehensive case productivity measures
and that OPP implement a system that more readily allows management to
identify and follow-up on significant recommendations that have not been
considered and/or implemented by grantees in a timely manner.

How Manaaement Responded

LSC stated that it is committed to the efficient and effective management of the
Corporation, including the program oversight work of OPP. Management also
noted that at the time of the OIG's review, there were several initiatives underway
within OPP that addressed several of the issues raised in the report and that
some of the practices and procedures had been implemented. Management did
agree to explore a more accurate and useful protocol for analyzing case closing
data and to establish a more formalized system for following up on significant
recommendations.
                                 INTRODUCTION

In January, 2005, the Office of lnspector General (OIG) announced plans to
conduct an audit of the Legal Services Corporation's (LSC) oversight of grantees.
The objective of this audit is to evaluate the efficiency and effectiveness of LSC's
oversight program(s), including the operations of the Office of Compliance &
Enforcement (OCE), the Office of Program Performance (OPP), and the Office of
lnformation Management (OIM), as well as the role of the Office of lnspector
General (OIG) and Independent Public Accountants (IPA).

Because of the number of different program offices involved in the oversight of
grantees and the length of time anticipated for each review, we are issuing
interim reports as we review each office. At the conclusion of our audit, we plan
to issue a capping report to address any overarching issues.


                                 BACKGROUND

OPP's mission statement indicates that OPP works as a fully integrated team, in
conjunction with the Office of lnformation Management (OIM) and the Office of
Compliance and Enforcement (OCE), to ensure strong, healthy legal services
programs that are responsive to client needs and provide high quality civil legal
assistance consistent with congressional mandates. Specifically, OPP is
responsible for: (1) designing and administering the competitive grant process;
(2) evaluation and supportive follow-up; (3) developing strategies to improve
program quality, including identifying areas of weakness and following up with
individual recipients; (4) promoting enhanced technology to improve client
community access to services; and (5) encouraging "best practices" through the
legal resource website, specialized help with intake and rural area delivery and
pilot projects such as loan repayment and mentoring.

OPP's staff totals 22 members, comprised of one Director, one Deputy Director,
one senior program counsel, eight program counsel, seven program analysts,
one grants coordinator, and three administrative assistants. The senior program
counsel, one program analyst, and seven of the program counsel serve as a
contact for a number of LSC service areas (each state has one or more service
areas; for 2006, LSC funded 136 basic field grants, 43 migrant worker grants and
26 Native American grants). In addition, the program analyst and these program
counsel are also responsible for at least one area of expertise, for example, pro
bono, intake, LSC Resource Initiative, and mentoring. The remaining program
counsel is responsible for technology initiatives. The program analysts1 work
includes areas such as program oversight, competition, technology, mentoring,
and disaster preparedness. OPP's annual budget for FY 2006 was $2.85 million,
including $2.4 million for personnel compensation and benefits, $201,000 for
travel, and $124,000 for consulting.
                    OBJECTIVES, SCOPE AND METHODOLOGY

Our overall objective was to review oversight programs managed by OPP and to
assess the extent of duplication of effort between OPP and other LSC offices
providing oversight to LSC grantees. Specifically, we reviewed the grant
competition and award process; however we did not evaluate the substance of
the grant applications, nor did we substitute our judgment for OPP's judgment in
rating and scoring the applications. We reviewed the results of on-site visits, the
process used to evaluate grantees' operations, and the process for issuing policy
guidance and OPP governance.

To accomplish our objective, we reviewed applicable legal authorities defining
the roles and responsibilities of the OIG and LSC management. We interviewed
management officials and OPP staff regarding grant application procedures and
grantee oversight. We reviewed memoranda, internal manuals, and schedules
provided by OPP, and reviewed information available electronically at LSC
websites. We also reviewed reports of OPP evaluations of grant applications
and OPP's scoring of grantee applications. Our audit focused primarily on the
grant competition and award process and evaluation aspects of grantee
operations. Therefore, we did not perform a detailed review of OPP special
projects and initiatives'.

From the OPP reports of grantee evaluations, we analyzed the types, frequency
and significance of the findings as presented in each report. We also compared
scope and coverage of OPP evaluations with OCE evaluations to determine if
there was any duplication. We accepted the findin s as described and did not
substitute our judgment for OPP's as to their validity.        9
The audit was conducted from December 2005 through December 2006.
Documents reviewed pertained to the period November 1996 through June 2006.
Our work was conducted exclusively at LSC headquarters in Washington, DC.

The OIG performed the audit in accordance with Government Audifing Sfandards
(2003 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public
Law 108-477, incorporating by reference Public Law 104-134.




' We did not review all of OPP's special projects to assist grantees; including technical grants,
diversity and mentoring, and loan repayment assistance. We also did not review grant award and
oversight for the grant to The United States Court of Appeals for Veterans Claims.
2
  Our review was limited to the findings as presented in the respective OPP reports. We did not
review any documentation maintained by OPP in their files supporting the findings.
                          OVERALL EVALUATION

Overall, programs managed by OPP generally did not duplicate the efforts of
other LSC offices providing oversight to LSC grantees. OPP's oversight of
grantees emphasized the quality and effectiveness of legal services provided to
the grantee's client base. OCE, in contrast, emphasized compliance with the
laws enacted by Congress and the regulations promulgated by LSC.

A system of competitive awards of grants and implementing regulations were in
place and pursuant to applicable laws. The competition process did add value by
requiring a detailed analysis of all qualified applicants' strengths and
weaknesses, even when the only qualified applicant was the incumbent grantee.

We did, however, find that some aspects of OPP's programs could be
strengthened.

      We discovered a system error in the scoring of grant applications that was
      corrected by management during the course of the audit. The system
      error did not adversely impact the actions taken by LSC as a result of
      scoring the applications.

      OPP could leverage its limited resources and facilitate more frequent
      coverage of grantees by restructuring the scope of some on-site grantee
      program reviews.

      Finally, the applicant and grantee evaluation process could be improved
      by implementing new follow-up procedures to ensure that
      recommendations are adopted timely and by using more accurate
      measures of case productivity as well as work measurement data.



                              AUDIT RESULTS

GRANT COMPETITION AND AWARD PROCESS

Background

Congress mandated as part of the LSC appropriation act of 1996 (Pub .L. 104-
134, 110 STAT. 1321, Sec. 503), that LSC implement a system of competitive
awards for all grants awarded by LSC after March 31, 1996, and that no person
or entity previously awarded a grant by LSC may be given any preference in the
competitive selection process. LSC issued regulations to implement a system of
competitive awards (45 CFR 1634). Some of the purposes of the competitive
system were to encourage the effective and economical delivery of high quality
legal assistance to eligible clients; provide opportunities for qualified attorneys
and entities to compete for grants and contracts to deliver such legal assistance;
and to encourage ongoing improvement of performance by recipients in providing
high quality legal services (45 CFR 1634.1).

Managed by OPP, the competition process includes: (1) preparing and issuing
the Request for Proposals (RFP); (2) establishing the application format and
providing guidance to applicants; (3) evaluating applications and making on-site
visits when appropriate; (4) convening a review panel for each service area with
more than one qualified applicant; and (5) making a recommendation to the LSC
President for grant awards.

OPP performs on-site capability assessments for most service areas where there
are multiple applicants and for single applicants that OPP finds deficient or weak.
When there are multiple applicants, OPP convenes a panel of persons with legal
service experience to review the applications. OPP staff recommendations for all
service areas and review panel recommendations for multiple applicant service
areas are then forwarded to the LSC President who makes the final
determination. Finally, grant awards are made in December each year for the
next calendar year.

LSC makes grant awards for periods of one to three years. Most of the grant
awards are made for three years, with applications for renewal due in the second
and third years. OPP reports that grants for less than three years are made
when weaknesses are identified in the applicants' proposals. In turn, OPP may
add special grant assurances that require a grantee to report on the status of any
weaknesses identified in the application process. The renewal of grants review
is less extensive, focusing on changes in the grantees' operations. OPP reports
that grant applications take about three days each to review (not including on-site
capability assessments or review panel time when conducted), while renewal
applications take about one hour each to review.


Competition

Black's Law Dictionary defines competition as "the effort or action of two or more
commercial interests to obtain the same business from third parties." LSC has
implemented a comprehensive system of competitive awards for its 209 service
areas3, and in which one grant is awarded to an applicant for each service area
competed. However, competition between two or more applicants for the grants
has been minimal at best.



3
 As of the time of the 2006 grant competition, LSC had 209 service areas. The number of
service areas may be smaller presently as a result of consolidation of service areas in Oregon.
LSC's regulation on competitive bidding includes the following purposes: to
provide opportunities for qualified attorneys and entities to compete for grants
and contracts to deliver high quality legal services to eligible clients; to
encourage the effective and economical delivery of legal services; and to
encourage ongoing improvement of performance by recipients regardless of the
number of bidders for a specific grant. Management stated that the competition
system is designed to measure quality and that minimum standards must be met.
Thus the competition can be among multiple applicants or with one applicant
competing to meet LSC's minimum quality standards. If these minimum quality
standards are not met regardless of the number of applicants, the grant is not
awarded until the standards are met by at least one applicant.

OPP informed the OIG that the competition process, with or without multiple
applicants, is a valuable tool for LSC because it provides a mechanism for
identifying and, if necessary, replacing grantees who have significant
weaknesses. We agree that the competition process provides value. The
evaluation portion requires a comprehensive review of each applicant and
provides LSC management with a process to identify and correct weaknesses in
an incumbent's program; and ideally if the weaknesses are serious enough, to
replace the incumbent.

According to LSC management, there have only been three instances since the
establishment of the competition process when non-LSC funded applicants were
successful in obtaining LSC grants. However, in two of these cases the applicant
withdrew after being awarded the grant. Ultimately, the incumbent was awarded
these two grants.

The lack of multiple applicants for grants has several causes. LSC responded to
congressional inquiries in 2002 and 2004, about the lack of competition by
stating that the restrictions mandated by Congress, including extensive reporting
requirements, and the lack of interest by potential vendors in providing a full
array of legal services may limit the number of applicants.

In addition to the information provided to Congress, we believe that the lack of
competition may have other causes as well. However, competition is a complex
issue and to be fully analyzed would require a body of work that is outside the
scope of this review. Therefore, the issue of competition may be addressed in
future work by the OIG.
Applicant Evaluation Scores

OPP's automated system for calculating total scores for applicant evaluations in
some instances did not calculate the correct total scores. These total scores
(along with other factors) are considered in making funding decisions as well as
whether or not to do a capability assessment andlor to add special grant
conditions. The OIG could not replicate either of the two total score calculations
reviewed for 2006 grant awards. In both instances, the total scores reported
were less than the sum of the scores for the elements that OPP evaluated. OPP
reported that their reviewers (program counsels) made changes in both cases to
ratings on some of the elements that the OIG reviewed, but did not activate the
"calculate total" function to change the total score. OPP stated that the computer
software utilized to complete these calculations did not automatically re-compute
total scores when changes were made for the individual elements that were
rated.

Comment. OPP subsequently reported that the Office of Information
Management had agreed to modify the system so that the total evaluation score
is re-calculated automatically whenever the reviewer saves, exits or prints the
evaluation form. Therefore, no recommendation is necessary.


POST AWARD EVALUATION AND OVERSIGHT

Background

OPP is responsible for ensuring the high quality of legal services provided by
grantees through evaluations and oversight that focus on development of
strategies to improve quality, including identification and follow-up on areas of
weakness. In addition, OPP evaluates efficiency by looking at case productivity
in case service report data provided by grantees. Each grantee is assigned to
one of the nine OPP staff members who serve as contact persons for the
grantees. Each program counsel is responsible for maintaining contact and
responding to grantee inquiries by telephone as well as participating in on-site
reviews.

A listing of on-site reviews performed by OPP from 2000 through 2005 reveals
that about 50% (72 of 138) of LSC's current grantees have not been reviewed by
OPP during this time period, including 16 of the 23 largest grantees, receiving
grants of $3 million or more in 2006. OPP reported that the priority for the on-site
reviews was special problems either identified in grant application narratives or
reviews by OCE or the OIG, grantees that have been re-configured and finally
the date of last review. OPP also indicated that evaluations by non-LSC funders
are considered in applying the date of last review criterion. OPP reports that
limited staff resources preclude additional reviews. OPP also reported that when
grantees were evaluated, interviews were utilized as the primary means of
evaluation and that many staff attorneys are interviewed as well as a number of
bar members, judges and social service agencies in the service area.


Tailoring Evaluations

By tailoring the scope of post-award evaluations to weaknesses or potential
weaknesses identified either in the application evaluations or in other LSC
reviews, OPP could provide on-site coverage and oversight of more grantees.
The OIG review of a sample of evaluations performed by OPP in 2004 and 2005
revealed that the scope for all of these reviews was the same: (1) board and
management leadership; (2) delivery systems (intake, office accessibility,
technology, PAI); (3) development and maintenance of high quality staff; (4)
resource development; (5) quantity, quality and outcomes of legal work; and (6)
experience, reputation, community involvement and coordination within the
delivery system. Although OPP reported that three of these reviews were
performed because of special concerns, those areas of concern are not apparent
from the reports.

We believe that OPP could better leverage its limited resources by tailoring the
scope of some on-site evaluations to the specific weaknesses that caused the
trip to occur. Thus some grantees would receive a full review while others would
receive a more targeted review. Limiting the scope could reduce staff resource
requirements for a specific visit and enable OPP to provide on-site coverage to
more grantees.

Comment. During the course of the audit, OPP instituted Program Engagement
Visits, the main purpose of which was for program counsel to develop a better
understanding of the program. Generally, the Program Engagement Visits are
one to two days in length and involve only one staff member. A review of the
results of three Program Engagement Visits disclosed that known issues were
addressed with the program as well as new issues developed. Because these
visits address the issue raised in the finding, no recommendation is necessary.


Improving Measures of Case Productivity

Measures of case productivity could be improved by using Case Service
Reporting (CSR) data that more accurately reflects cases handled with LSC
funding as well as utilizing the work measurement data that the grantees are
required to compile.

For example, a report used by OPP to evaluate case productivity for grantees
may not provide the necessary information to make a valid analysis. This report
includes annual case closings by type of case and level of service per 10,000
poor persons. However, the CSR Manual directs grantees to report all LSC-
eligible cases regardless of funding source. Currently, on average LSC grantees
receive approximately 55 percent of their funding from sources other than LSC.
The amount of non-LSC funding can be over 75 percent of a specific grantee's
total funding.

The table below illustrates the impact on productivity if other factors like funding
are not considered in the analysis. If both grantees were compared to the
national average, the conclusion that may be drawn is that both are performing
above the national average. However, when funding is considered and all other
factors are equal, Grantee A may be more productive than Grantee B because
Grantee A is closing the same number of cases but only using half of the funds.


                        Cases closed per 10,000 poor people

               National    Grantee's         LSC      non-LSC       Total
               Average     Average       Funding      Funding    Funding
 Grantee A       400         450         $900,000           $0  $900,000
 Grantee B       400         450         $900,000     $900,000 $1,800,000


Consequently, a comparison of case productivity for an LSC grantee to the
national average or a comparison of one grantee to another without considering
total funding and other factors may not be an accurate representation of
productivity.

Developing measures that that more accurately compares and contrasts grantee
productivity can help management to quickly identify grantees that may need
some assistance as well as identify grantees that may be used to share best
practices with other grantees.

Recommendation 1. The Vice-President for Programs and Compliance should
instruct the Director, OPP to develop more comprehensive measures that better
represent case productivity.

Manaqement Comments - Recommendation 1.

LSC management stated:

      "LSC will explore whether there is a more accurate and useful
      protocol for analyzing case closing data. If there is, it will be
      implemented."

The full text of Management Comments is incorporated into the report as
Appendix I.
Formal Follow-up Procedures

OPP reported that program counsel are responsible for following up on all
recommendations made in on-site reviews. However, there was no control to
ensure that recommendations were being implemented timely prior to 2005.
OPP reported that beginning in 2005, the Deputy Director maintained a listing of
these recommendations. OPP also reported that beginning in 2006, the Deputy
Director would ensure that staff is monitoring progress on these
recommendations in periodic meetings on work plans throughout the year.

We believe that a more formalized system of follow-up would be beneficial given
the level of effort involved in performing on-site reviews and the importance of
addressing timely those weaknesses that rise to the level of a finding and
recommendation. An automated data base with some prescribed time frames for
implementing recommendations would be beneficial and allow management to
better follow-up on significant recommendations.

Recommendation 2. The Vice-President for Programs and Compliance should
instruct the Director, OPP to implement a system to track significant
recommendations that more readily allows management to identify and follow-up
on significant recommendations that have not been considered and/or
implemented by grantees in a timely manner.

Manaqement Comments - Recommendation 2.

LSC management stated:

      "LSC already tracks and follows up on significant recommendations
      that come out of visits and agrees to continue to implement this
      recommendation by establishing a more formalized system for
      following up on significant recommendations."

The full text of Management Comments is incorporated into the report as
Appendix I.

            EVALUATION OF MANAGEMENT COMMENTS


Management comments address the issues raised in the report and
actions planned are responsive to the recommendations. A complete text
of management's comments can be found at Appendix I.
APPENDIX I
TO:          Kirt West                                                            .   -
FROM:        Helaine M. Barnett   w
DATE:        April 2, 2007

SUBJECT:     LSC Management Response to OIG Draft lnterim Report on Management
             Oversight of Grantees - Office of Program Performance



       The Office of the Inspector General (OIG) submitted to LSC Management a draft
                                                      -
lnterim Report on Management Oversight of Grantees Office of Program
Performance, on February 23,2007. The attached document is LSC Management's
response to that draft.

       LSC Management is committed to the efficient and effective management of the
Corporation, including the program oversight work of the Office of Program
Performance. As is noted in our responses to the recommendations of the draft lnterim
Report, at the time of this OIG review, there were discussions underway within the
Office of Program Performance about several of the issues raised in the lnterim Report
and other aspects of the work of that office. Some practices and procedures already
had been updated and implemented. LSC Management continues to engage in an
assessment of the work of this office, will continue to make adjustments as deemed
appropriate, and will respond more fully to your analysis of grantee oversight after the
OIG capping report is complete and received by LSC Management.



cc: Karen Sarjeant
    Charles Jeffress
    Victor Fortuno
    Mike Genz
    Ronald Merryman
                          MANAGEMENT RESPONSE
                   TO THE OFFICE OF INSPECTOR GENERAL'S
                              INTERIM REPORT
                  ON MANAGEMENT OVERSIGHT OF GRANTEES
                     OFFICE OF PROGRAM PERFORMANCE




The lnterim Report on Management Oversight of Grantees - Office of Program
Performance (Interim Report) listed two recommendations from the Office of Inspector
General (OIG) to the Legal Services Corporation (LSC) Management. Detailed below
are LSC Management's responses to those two recommendations as well as a brief
discussion of the issue of competition as related to LSC grant awards.


Recommendation 7:       Develop more comprehensive measures that better
represent case productivity.

Management Response: LSC will explore whether there is a more accurate and
useful protocol for analyzing case closing data. If there is, it will b e implemented.

The Interim Report notes that programs' productivity is impacted by their total funding
and that an evaluation of case productivity that does not take this into account does not
present a full picture.

We agree that a program's case productivity is impacted by its total funding. However, a
simple comparison based on total funding is not necessarily much more accurate than a
comparison that looks only at LSC funding. Some outside funding is not for LSC-eligible
cases because it is for clients who are over-income or it is for programs (such as Title Ill
Elderly Legal Services) where income eligibility is not collected. Also, some funding that
programs receive is for work other than legal work, such as community education.

There are other factors that affect the case count. The experience levels of staff,
demographics and geography of a service area, program board-approved priorities, the
extent of non-LSC funding, the purpose of that funding, the level of services provided
(advice vs. extended service), and work that is not captured in the Case Service Reports
(CSR), such as Matters, are only some of the factors that make analysis of CSR data
difficult. All of these factors are taken into account when drawing any conclusions on a
program's productivity.

LSC is currently revising the CSR Handbook to provide improved guidance on case
counting procedures, including adding more clarity on how to define the extent of work
that is required in certain cases. We believe that this improved guidance will necessarily
improve our analysis of case closing data.

Yet, there may be other considerations that would assist our analysis of case closing
data; we will continue to explore these.
Recommendation 2: Implement a system to track significant recommendations
that more readily allows management to identify and follow-up on significant
recommendations that have not been considered and/or implemented by grantees
in a timely manner.

Management Response: LSC already tracks and follows up on significant
recommendations that come out of visits and agrees to continue to implement
this recommendation by establishing a more formalized system for following up
on significant recommendations.

As the Interim Report notes, a system for tracking recommendations that come from
program visits was instituted at the beginning of 2006, tied to OPP staff work plans.

It is important to note that recommendations suggested to a program by OPP are
different from corrective actions required of a program by the Office of Compliance and
Enforcement.        There are many indicators of high-quality legal services and
recommendations often suggest alternatives to consider. Programs may choose among
those alternatives and still provide high-quality legal services; they often do not need to
follow every recommendation. Some recommendations are more important than others,
some are easier to implement than others, and after consideration by the program some
recommendations are more appropriate than others. All of these factors need to be
taken into account in deciding whether and how to follow up on a particular
recommendation. We agree that it is appropriate to follow up on recommendations that
we have signaled to the program as significant and we already do that. We will work to
establish a more formalized system for tracking consideration or implementation of these
significant recommendations.


DISCUSSION OF THE                      AND AWARDPROCESS
                    LSC GRANTCOMPETITION

LSC appreciates the OIG's observation that, "...competition is a complex issue and to be
fully analyzed would require a body of work that is outside the scope of this review." We
also appreciate the OlG's conclusion that the LSC competition process is a valuable tool
even in the absence of a significant number of multiple applications. Nevertheless, a
substantial part of the lnterim Report addresses some aspects of the competition
process and it is important to make the following points.

As the OIG's lnterim Report notes, LSC's regulation on competition includes the
following purposes:

       encouraging the effective and economical delivery of high quality legal services
       that is consistent with the Corporation's Performance Criteria and the American
       Bar Association's Standards for Providers of Civil Legal Services to the Poor
       though an integrated system of legal service providers,

       providing opportunities for qualified attorneys and entities to compete for grants
       and contracts to delivery high quality legal services, and
       encouraging ongoing improvement of performance by recipients in providing high
       quality legal services to eligible clients.'

LSC works hard to address each of these purposes. First, the grant competition and
award process is designed to encourage the effective delivery of high quality legal
services. The inquiries in the Request for Proposals are carefully crafted to elicit
information necessary to judge the applicant's adherence to the LSC Performance
Criteria and ABA Standards. Each application is reviewed in light of the Criteria and
Standards. As necessary, even when there is only one applicant in a service area,
before an award is made LSC will conduct a capability assessment, i.e. an on-site
evaluation of an applicant, to assure that the applicant can meet the quality standards.

Second, LSC makes every effort to provide opportunities for qualified attorneys and
entities to compete for grants to deliver high quality legal services. Notices of grant
availability are published in bar journals, in appropriate local newspapers and on the
LSC web site. The relevant information that a new applicant needs is available on the
LSC website. An applicant information session and answers to individual inquiries are
available for all applicants. An email address is maintained to promptly answer any
questions. Those who filed Notices of Intent to Compete but did not follow up with an
application are surveyed to determine the barriers faced. Where a new applicant is
determined to have not submitted a qualified application, a letter is written describing the
deficiencies in the application and inviting the applicant to apply in the future.

Even with all of these efforts to encourage competition, the occurrence of multiple
applicants is minimal. The Interim Report correctly notes that LSC believes that the lack
of multiple applicants for grants has several causes - the extensive LSC reporting
requirements, the requirement that applicants provide for a full range of legal services,
and the congressional restrictions. We also agree that there may be other causes as
well. Should the OIG's future work address the issue of competition, we would welcome
any insights that might come through that process.

Third, LSC uses the competition process to encourage ongoing improvement of
performance by entities that do receive LSC grant awards. Both the Request for
Proposals and program assessment visits are designed around the LSC Performance
Criteria. Significant weaknesses that have been identified are followed up during the
period of the grant. That follow-up may include a visit, special grant conditions that
require the reporting of progress in addressing problems, or it may involve periodic
informal contact by the program's LSC program counsel to assess the ongoing
improvement of the program. Where appropriate, LSC provides technical assistance,
shares best practices or refers programs to other resources. The competition process is
also used to identify practices that show promise for expanding the delivery of legal
services and might be worthy of replication in other places.

LSC continues to seek ways to encourage competition for its grants. Again, we
welcome any suggestions from the OIG on how to increase interest in LSC funding and
how to translate that interest into applications for LSC funding.



'45 CFR Section 1634.1. The other two purposes are lo preserve local control over resource allocation and
program priorities and to minimize disruptions in the delivery of legal services to eligible clients within a
service area during a transition to a new provider.
